                              Fiscal Year 2004
                    Statutory Review of Compliance With
                        Lien Due Process Procedures

                                     April 2004

                       Reference Number: 2004-30-086




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                          April 8, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Fiscal Year 2004 Statutory Review of
                                     Compliance With Lien Due Process Procedures
                                     (Audit # 200330030)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Lien Due Process Procedures. The overall objective of this review was to determine
       whether the Notices of Federal Tax Lien (NFTL) filed by the IRS complied with legal
       requirements set forth in Internal Revenue Code Section (I.R.C. §) 6320.1
       The IRS attempts to collect Federal taxes due from taxpayers by sending letters,
       making telephone calls, and meeting face to face with taxpayers. When initial contacts
       by the IRS do not result in the successful collection of unpaid tax, the IRS has the
       authority to attach a claim to the taxpayer’s assets, called an NFTL, for the amount of
       unpaid tax liability.2 Since January 19, 1999, I.R.C. § 6320 has required the IRS to
       notify taxpayers in writing within 5 business days of the filing of an NFTL.
       The Treasury Inspector General for Tax Administration is required to determine annually
       whether NFTLs filed by the IRS comply with the legal guidelines in I.R.C. § 6320.3 This
       is the sixth audit performed on the IRS’ compliance with the law and its own related
       internal guidelines when filing NFTLs.
       In summary, the IRS did not completely comply with the law. A review of a statistically
       valid sample of 130 NFTLs identified 6 NFTLs (4.6 percent) for which the IRS correctly
       mailed the lien notices but did not mail them timely, as required by I.R.C. § 6320. In

       1
         I.R.C. § 6320 (Supp. V 1999).
       2
         I.R.C. § 6321 (1994).
       3
         I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                            2

addition, for another 5 NFTLs (3.8 percent), we could not determine if the IRS complied
with the law because it did not provide proof of timely mailing. Finally, in 24
(18 percent) of the 130 NFTLs reviewed, the IRS did not follow its own internal
guidelines when issuing lien notices, including the guidelines for notifying taxpayer
representatives and for receipting and maintaining certified mail listings.
We recommended the Commissioner, Small Business/Self-Employed Division, consult
with the Office of Chief Counsel to identify any actions necessary to correct the potential
legal violations we identified in this audit.
Management’s Response: IRS management agreed with the recommendation and
plans to review the cases with the Office of Chief Counsel and discuss the actions
needed to correct any potential legal violations. Management’s complete response to
the draft report is included as Appendix VII.
Copies of this report are also being sent to IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
                         Fiscal Year 2004 Statutory Review of Compliance With
                                     Lien Due Process Procedures




                                                  Table of Contents


Background ............................................................................................... Page 1
Lien Notices Were Not Always Mailed Timely ........................................... Page 3
         Recommendation 1: ........................................................................ Page 5

Internal Guidelines Were Not Being Followed for Notifying Taxpayer
Representatives and Maintaining Proof of Mailing..................................... Page 5
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures ............................................................ Page 14
Appendix V – Synopsis of the Internal Revenue Service Collection
and Lien Filing Processes ......................................................................... Page 15
Appendix VI – Internal Revenue Service Computer Systems
Used in the Filing of Notices of Federal Tax Lien ...................................... Page 17
Appendix VII – Management’s Response to the Draft Report ................... Page 18
             Fiscal Year 2004 Statutory Review of Compliance With
                         Lien Due Process Procedures

                             The Internal Revenue Service (IRS) attempts to collect
Background
                             Federal taxes due from taxpayers by sending letters, making
                             telephone calls, and meeting face to face with taxpayers.
                             When initial contacts by the IRS do not result in the
                             successful collection of unpaid tax, the IRS has the authority
                             to attach a claim to the taxpayer’s assets for the amount of
                             unpaid tax liability.1 This claim is referred to as a Notice of
                             Federal Tax Lien (NFTL).
                             Since January 19, 1999, Internal Revenue Code Section
                             (I.R.C. §) 63202 has required the IRS to notify taxpayers in
                             writing within 5 business days of the filing of an NFTL.3
                             The IRS is required to notify taxpayers the first time an
                             NFTL is filed for each tax period. The Notice of Federal
                             Tax Lien Filing and Your Right to a Hearing Under IRC
                             6320 4 (lien notice) is used for this purpose and advises
                             taxpayers that they have 30 calendar days, after that 5-day
                             period, in which to request a hearing with the IRS Appeals
                             function. The lien notice indicates the date this 30-day
                             period expires.
                             The law also requires that the lien notice explain, in simple
                             terms, the amount of unpaid tax, administrative appeals
                             available to the taxpayer, and provisions of the law and
                             procedures relating to the release of liens on property. The
                             lien notice must be given in person, left at the taxpayer’s
                             home or business, or sent certified or registered mail to the
                             taxpayer’s last known address.
                             A synopsis of the IRS collection and lien filing processes is
                             included in Appendix V. A description of IRS computer
                             systems used in the filing of liens is included in
                             Appendix VI.
                             The IRS is filing an increasing number of NFTLs to protect
                             the Federal Government’s interest. Since the enactment of
                             the law, the number of NFTLs filed has increased


                             1
                               Internal Revenue Code § 6321 (1994).
                             2
                               I.R.C. § 6320 (Supp. V 1999).
                             3
                               Notice of Federal Tax Lien Under Internal Revenue Laws,
                             Form 668(Y)(c) (Rev.10-1999), Cat. No. 60025X.
                             4
                               Notice of Federal Tax Lien Filing and Your Right to a Hearing Under
                             IRC 6320, Letter 3172 (DO) (01-1999).
                                                                                           Page 1
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                significantly, from approximately 168,000 in the fiscal year
                in which the law was enacted to over 530,000 in Fiscal
                Year (FY) 2003. Figure 1 shows the number of NFTLs
                filed in the last 5 fiscal years.

                                                         Figure 1: Liens Filed


                                        600,000                                            536,179
                                                                                 491,709



                      Number of Liens
                                        500,000                       428,376


                                        400,000
                                                            287,517
                                        300,000

                                        200,000   167,867

                                        100,000

                                             0
                                                  1999       2000     2001       2002      2003


                Source: IRS Collection 5000-23 Reports.

                The Treasury Inspector General for Tax Administration
                (TIGTA) is required to determine annually whether NFTLs
                filed by the IRS comply with the legal guidelines set forth in
                the law.5 We performed our audit work between August and
                December 2003. Our review included a site visit to the
                Compliance Policy function within the IRS Small
                Business/Self-Employed (SB/SE) Division Headquarters in
                New Carrollton, Maryland.
                The audit was conducted in accordance with Government
                Auditing Standards. Detailed information on our audit
                objective, scope, and methodology is presented in
                Appendix I. Major contributors to the report are listed in
                Appendix II.
                Results of prior TIGTA reviews
                This is the sixth annual audit to determine if the IRS
                complied with the legal requirements of I.R.C. § 6320. In
                the prior 5 years, we reported that the IRS had not yet

                5
                    I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                  Page 2
                  Fiscal Year 2004 Statutory Review of Compliance With
                              Lien Due Process Procedures

                                  achieved full compliance with the law and its own internal
                                  guidelines. We reported in FY 1999 that 33 percent of
                                  NFTLs reviewed involved potential violations of taxpayer
                                  rights.6 Figure 2 shows that in FYs 2000,7 2001,8 2002,9 and
                                  2003,10 we reported that 4, 8, 9, and 4 percent, respectively,
                                  of the NFTLs reviewed did not comply with the law.


                                            Figure 2: Violations of Taxpayer Rights

                                      35%         33%

                                      30%
                                      25%
                                      20%
                                      15%
                                                                8%     9%
                                      10%
                                                          4%                  4%
                                      5%
                                      0%
                                                  1999   2000   2001   2002   2003


                                  Source: TIGTA Mandatory Lien Reviews from Fiscal Years
                                  1999 through 2003.

                                  A review of a statistically valid sample of 130 NFTLs
Lien Notices Were Not Always
                                  identified 6 NFTLs (4.6 percent) for which the IRS correctly
Mailed Timely
                                  mailed the lien notices but did not mail them timely, as
                                  required by I.R.C. § 6320. For the 6 NFTLs, lien notices
                                  were not mailed within 5 business days after the date of the
                                  filing of the liens. The notices were mailed from 1 to 5 days
                                  late. We estimate that 22,478 NFTL notices prepared from

                                  6
                                    The Internal Revenue Service Should Improve Its Federal Tax Lien
                                  Procedures (Reference Number 199910074, dated September 1999).
                                  7
                                    Compliance With Requirements for Notifying Taxpayers of Federal
                                  Tax Lien Filings Has Not Yet Been Achieved (Reference
                                  Number 2000-10-152, dated September 2000).
                                  8
                                    Full Compliance With Requirements for Notifying Taxpayers of
                                  Federal Tax Lien Filings Has Not Yet Been Achieved (Reference
                                  Number 2001-10-127, dated August 2001).
                                  9
                                    Compliance With Lien Notice Requirements Has Not Been Achieved
                                  (Reference Number 2002-40-135, dated August 2002).
                                  10
                                     Fiscal Year 2003 Statutory Review of Compliance With Lien Due
                                  Process Procedures (Reference Number 2003-40-066, dated
                                  February 2003).
                                                                                               Page 3
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                August 1, 2002, through July 31, 2003, could have been
                mailed late.
                Although we could not identify the specific reasons for the
                delays, employees did not use the information on the
                Automated Lien System (ALS) about required notices to
                prepare the notices timely. Therefore, there were delays in
                sending lien filed notifications to taxpayers. Delays in
                mailing the lien notices can reduce the time taxpayers have
                to request a hearing to less than the 30-day period allowed
                by the law. These errors could result in violations of a
                taxpayer’s rights should the taxpayer appeal the filing of the
                lien notice and the IRS deny the request for the appeal.
                In addition, for another 5 NFTLs (3.8 percent), we could not
                determine if the IRS complied with the law because it did
                not provide proof of timely mailing. Reasons included the
                listings were lost during transition from one office to
                another or the mail listing with the correct date was not
                available. If a taxpayer is not notified that an NFTL has
                been filed, he or she might not be aware of the right to
                appeal.
                The IRS National Headquarters NFTL compliance
                review identified similar potential violations of the law11
                The IRS annually performs a Compliance Lien Collection
                Due Process Review to ensure IRS procedures are being
                followed and taxpayers’ rights are being protected. The
                review includes analyses to determine if the IRS timely
                notified taxpayers; notified business partners, spouses, and
                taxpayer representatives of the filing of an NFTL; and
                timely processed undelivered mail. The review also focuses
                on the cause of noncompliance with lien procedures and
                follows up with the appropriate offices to improve
                compliance with the lien process. The IRS is currently in
                the process of completing the FY 2003 review of between
                50 and 80 liens.



                11
                  We used a different methodology from that used by the IRS when
                conducting the NFTL reviews; therefore, the results of the two reviews
                cannot be strictly compared.
                                                                                Page 4
                  Fiscal Year 2004 Statutory Review of Compliance With
                              Lien Due Process Procedures

                                  In March 2003, the IRS completed its FY 2002 review of
                                  230 NFTLs filed from January through August 2002. This
                                  review identified that 6 percent of the liens reviewed were
                                  not mailed within 5 business days after the filing of the liens
                                  or did not have a date-stamped copy of United States Postal
                                  Service Form 3877 (also called a certified mail listing). The
                                  IRS review identified printer problems, mailroom delays,
                                  and staffing issues as some of the causes. As of
                                  October 17, 2003, the IRS had taken appropriate corrective
                                  actions for those potential violations.

                                  Recommendation

                                  1. The Commissioner, SB/SE Division, should consult
                                     with the Office of Chief Counsel to identify any actions
                                     necessary to correct the potential legal violations we
                                     identified in this audit.
                                  Management’s Response: As in resolving potential legal
                                  violations in past reviews, the IRS will continue to consult
                                  with the Office of Chief Counsel on potential legal
                                  violations. The IRS will review the cases we identified with
                                  the Office of Chief Counsel and discuss the actions needed
                                  to correct any potential legal violations.

Internal Guidelines Were Not      In 24 (18 percent) of the 130 NFTL cases reviewed, the IRS
Being Followed for Notifying      did not follow its own internal guidelines when issuing lien
Taxpayer Representatives and      notices, including its guidelines for notifying taxpayer
Maintaining Proof of Mailing      representatives (19 cases) and for receipting and
                                  maintaining certified mail listings (5 cases). Two of these
                                  24 NFTL cases were also included in those notices not
                                  mailed timely mentioned in the prior report section.
                                  Notices were not always sent to taxpayer representatives
                                  For 19 (66 percent) of 29 NFTLs12 for which the taxpayer
                                  had a representative, a copy of the lien notice was not sent
                                  to the representatives as required by IRS internal guidelines.
                                  The IRS stated this happened for various reasons, such as
                                  the employees did not forward the taxpayer representatives’
                                  information to the ALS units, the employees forwarded the

                                  12
                                    Our review of 130 sample cases identified 29 cases in which the
                                  taxpayer had a representative.
                                                                                                 Page 5
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                information to the Technical Support function instead of the
                ALS units, or ALS unit employees did not send the notices
                although they had received the taxpayer representatives’
                information. For several cases, there was no case history
                available to determine the reasons.
                IRS procedures require that a copy of the notice be sent to
                the taxpayer’s representative not later than 5 days after the
                notice is sent to the taxpayer when an NFTL is filed. IRS
                employees requesting the NFTL and lien notice through the
                Automated Collection System (ACS) are responsible for
                electronically forwarding the taxpayer representative
                information to the ALS units, so a copy of the lien notice
                can be sent. Revenue officers using the Integrated
                Collection System (ICS) may choose to send the taxpayer
                representative information to the ALS unit by facsimile or
                send the lien notice directly to the taxpayer representative
                without using the ALS. The ALS units are responsible for
                printing and mailing NFTLs and related lien notices.
                Of the 19 NFTLs, 2 liens (11 percent) were initiated through
                the ACS. Although the ACS had taxpayer representative
                information for these two liens, the IRS did not send lien
                notifications to the taxpayer representatives. In one case,
                the ALS history shows information was forwarded to the
                ALS unit, but the lien notification was not sent. We did not
                have the case history for the other case. However, as
                Figure 3 shows, the current year’s results were better than
                those identified in our FYs 2002 and 2003 reports, 42 and
                31 percent, respectively.




                                                                       Page 6
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                         Figure 3: ACS-Initiated Employee Errors for
                             Notifiying Taxpayer Representatives

                  50%
                                  42%
                  40%
                                            31%
                  30%

                  20%
                                                      11%
                  10%

                   0%
                                  2002      2003      2004


                Source: TIGTA Mandatory Lien Reviews from FYs 2002 through 2004.

                The programming changes for the ACS initiated during
                FY 2000 contributed to this improvement in more
                efficiently identifying and notifying taxpayer
                representatives. The ACS now has the ability to directly
                send to the ALS unit an electronic file of taxpayer
                representative information which is printed and manually
                keyed in by the ALS unit personnel. Although the
                representative information must still be manually input to
                the ALS by ALS unit employees, there is a software
                enhancement planned that could further alleviate the manual
                process and enable fully automated notification to taxpayer
                representatives on the ALS.
                The other 17 of 19 NFTLs were initiated through the ICS.
                In 15 of the 17 NFTLs, a revenue officer using the ICS did
                not document that he or she had requested a lien notice be
                sent to the taxpayer representative (13 instances) or the ICS
                history was not available to confirm the action by the
                revenue officer (2 instances). Revenue officers are required
                to document in the case history when they request a lien
                notice for taxpayer representatives. Revenue officers’
                managers are also required to review case files for this
                documentation. For the remaining 2 of 17 NFTLs, although
                the revenue officers forwarded the taxpayer representative
                information to the ALS, notification letters were not sent to
                the taxpayer representatives.



                                                                         Page 7
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                The IRS is in the process of designing a programming
                enhancement to the ICS, similar to the ACS change, that
                will electronically forward taxpayer representative
                information to the ALS units. The scheduled completion
                date for this action was postponed from its targeted date of
                January 2005 and now is slated for completion in the middle
                of FY 2005.
                Proof of mailing
                For 5 of the 24 NFTLs,13 the IRS could not provide proof of
                mailing because there was no certified mail listing on file.
                Some of the reasons were that the listings were lost during
                transition from one office to another or the mail listing with
                a correct date was not available.
                The process for mailing the notices and obtaining the date
                stamp on the certified mail listings varies among offices.
                Some ALS units take the certified mail listings and notices
                directly to the United States Postal Service for mailing,
                while others rely on the IRS Mailroom function to process
                the mail and obtain a date stamp on the listings.
                IRS procedures require the retention of the date-stamped
                copy of each listing for 10 years after the end of the
                processing year. Without the dated proof of mailing, the
                IRS may be unable to protect itself against a taxpayer’s
                claim that he or she did not receive timely notice of the lien
                and was unaware an NFTL had been filed against his or her
                assets.
                The IRS National Headquarters NFTL compliance
                review identified similar instances of noncompliance
                with internal guidelines
                The IRS’ FY 2002 review identified retention, legibility,
                and maintenance of certified mail listings as an area of
                noncompliance with internal lien processing guidance. The
                review also noted that taxpayer representatives were not
                always provided with a copy of the lien notice. These
                results are similar to those of this and prior TIGTA reviews.

                13
                  These 5 NFTLs are those identified earlier for which we could not
                determine if the IRS complied with the law because it did not provide
                proof of timely mailing.
                                                                                Page 8
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                We are making no recommendations at this time regarding
                internal guidelines. As part of corrective actions to a prior
                TIGTA report, the IRS is already taking actions to automate
                the process for notifying taxpayer representatives. See
                page 7 of this report for a description of those actions.




                                                                      Page 9
                          Fiscal Year 2004 Statutory Review of Compliance With
                                      Lien Due Process Procedures

                                                                                             Appendix I


                             Detailed Objective, Scope, and Methodology

The objective of this audit was to determine if the Notices of Federal Tax Lien (NFTL) issued by
the Internal Revenue Service (IRS) complied with legal requirements set forth in Internal
Revenue Code Section (I.R.C. §) 6320.1 To accomplish our objective, we:
I.         Determined if liens issued by the IRS complied with legal requirements set forth in
           I.R.C. § 6320 (a) and related internal guidelines.
           A. Obtained from the IRS Automated Lien System (ALS) Project Team an extract of
              liens prepared by the IRS nationwide between August 1, 2002, and July 31, 2003.
              The ALS extract contained 487,018 liens and excluded refiled liens. We traced the
              total population for accuracy to the Collection Report of Liens for the same period.
              We validated the sample selected in Audit Test I.B. by accessing the ALS database
              and verifying that the extract information was accurate. We also compared taxpayer
              data to the IRS Integrated Data Retrieval System (IDRS).2
           B. Selected a statistically valid sample of 130 NFTLs for review from the ALS extract.
              We used a statistical sample because we wanted to project the number of errors. We
              used attribute sampling and the following formula to calculate the minimum sample
              size (n) of 116, which we rounded to 130:
                    n = (NZ2 p(1-p)) / (NE2 + Z2 p(1-p)).
                    N = Population of lien notices (487,018).
                    Z = Desired Confidence Level (90 percent).
                    p = Expected Error Rate (4 percent).
                    E = Precision Level (3 percent).
           C. Analyzed 130 liens using data from the ALS, Integrated Collection System,
              Automated Collection System, and IDRS to determine if the IRS adhered to the legal
              and internal guidelines.
                1. Obtained certified mail listings (CML) (also called United States Postal Service
                   Forms 3877) for 125 of the 130 sample cases (5 of the 130 CMLs were not
                   available) and compared the lien filed date to the postal mail date on the CML to
                   determine if the lien notices were sent to taxpayers timely.
                2. Determined if taxpayers, spouses, partners, and taxpayer representatives received
                   notices.

1
    I.R.C. § 6320 (Supp. V 1999).
2
    See Appendix VI for a description of IRS computer systems used in the filing of liens.
                                                                                                 Page 10
                   Fiscal Year 2004 Statutory Review of Compliance With
                               Lien Due Process Procedures

          3. Determined if the lien notices were mailed to correct addresses and the
             undeliverable notices were appropriately processed.
          4. Scanned for indications of fraud during the case reviews.
       D. Consulted with the Treasury Inspector General for Tax Administration Office of
          Counsel prior to reporting any potential legal violations to IRS management to ensure
          they were potential legal violations.
       E. Provided and discussed all exception cases with Small Business/Self-Employed
          (SB/SE) Division Compliance function management for agreement to potential
          violations and corrective action, if appropriate.
II.    Determined if internal guidelines have been implemented or modified since our last
       review by discussing procedures and controls with appropriate IRS personnel in the
       SB/SE Division Compliance function.
III.   Determined if the consolidation of the 35 ALS databases has affected any of the internal
       guidelines or processes performed by the ALS units by discussing the issues with
       appropriate IRS personnel in the SB/SE Division Compliance function.




                                                                                         Page 11
                   Fiscal Year 2004 Statutory Review of Compliance With
                               Lien Due Process Procedures

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
James D. Dorrell, Senior Auditor
Pillai Sittampalam, Senior Auditor
Phyllis E. Heald, Auditor




                                                                                       Page 12
                 Fiscal Year 2004 Statutory Review of Compliance With
                             Lien Due Process Procedures

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S.
       Commissioner, Wage and Investment Division SE:W




                                                                                  Page 13
                       Fiscal Year 2004 Statutory Review of Compliance With
                                   Lien Due Process Procedures

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 22,478 Notices of Federal Tax Lien (NFTL)
    with legal violations of taxpayers’ rights (see page 3).
Methodology Used to Measure the Reported Benefit:
From the nationwide statistically valid sample of 130 NFTLs,1 we identified 6 NFTLs
(4.6 percent) with potential legal violations of taxpayers’ rights. The sample was selected based
on a confidence level of 90 percent, a precision level of + 3 percent, and an expected error rate of
4 percent. After reviewing the 130 NFTLs in our sample, we determined that the actual error
rate was 4.62 percent, which prompted us to have to change the precision level to + 3.05 percent.
We projected the findings to the total population provided by the Internal Revenue Service (IRS)
of 487,018 NFTLs prepared by the Automated Lien System2 from August 1, 2002, through
July 31, 2003. We estimated similar taxpayer rights could have been affected in
22,478 NFTLs (6/130 x 487,018 population). We are 90 percent confident the range of NFTLs
affected by similar errors is between 21,792 and 23,164.
Taxpayer rights could be affected because the taxpayer not receiving a notice or receiving a late
notice might not be aware of the right to appeal or have less than the 30-day period allowed by
the law to request a hearing. In addition, taxpayer rights could be affected when a taxpayer
appeals the filing of the lien and the IRS denies the request for the appeal.




1
  One NFTL may require multiple lien notices since the Internal Revenue Service is required to separately notify
taxpayers’ spouses and business partners.
2
  See Appendix VI for a description of this system.



                                                                                                           Page 14
                    Fiscal Year 2004 Statutory Review of Compliance With
                                Lien Due Process Procedures

                                                                                      Appendix V


                         Synopsis of the Internal Revenue Service
                           Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. The Internal Revenue Service (IRS)
computer systems are programmed to mail these notices when certain criteria are met. If the
taxpayer does not respond to these notices, the account is transferred for either personal or
telephone contact. A description of IRS computer systems used in the filing of lien notices is
included in Appendix VI.
•   IRS employees who make personal (face-to-face) contact with taxpayers are called revenue
    officers and work in the IRS Area Offices. The computer system used in most of the Area
    Offices to track collection actions taken on taxpayer accounts is called the Integrated
    Collection System (ICS).
•   IRS employees who make only telephone contact with taxpayers work in call sites in IRS
    Customer Service offices. The computer system used in the call sites to track collection
    actions taken on taxpayer accounts is called the Automated Collection System (ACS).
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a Notice of Federal Tax Lien (NFTL). Liens protect the
Federal Government’s interest by attaching a claim to the taxpayer’s assets for the amount of
unpaid tax liability. The right to file an NFTL is created by Internal Revenue Code Section
6321 (1994) when:
•   The IRS has made an assessment and given the taxpayer notice of the assessment, stating the
    amount of the tax liability and demanding payment.
•   The taxpayer has neglected or refused to pay the amount within 10 days after the notice and
    demand for payment.
When designated employees request the filing of an NFTL using either the ICS or ACS, the
NFTL requests from both systems are transferred to the Automated Lien System (ALS). All
NFTLs are processed by the ALS unless there is an expedite situation, in which case the NFTL is
manually prepared. Although they are manually prepared and not printed through the ALS,
manual NFTLs are tracked and controlled on the ALS and the lien notice is processed through
the ALS. The ALS maintains an electronic database of all open NFTLs and updates the IRS
primary computer records to indicate that an NFTL has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. To maintain a record of the notices, the IRS prepares a certified mail listing
(United States Postal Service Form 3877) which identifies each notice that is to be mailed. The

                                                                                             Page 15
                    Fiscal Year 2004 Statutory Review of Compliance With
                                Lien Due Process Procedures

notices and a copy of the certified mail listing are delivered to the United States Postal Service.
A Postal Service employee ensures all notices are accounted for, then date stamps the listing and
returns a copy to the IRS. The stamped certified mail listing is the only documentation the IRS
has that certifies the date on which the notices were mailed. IRS guidelines require that the
stamped certified mail listing be retained for 10 years after the end of the processing year.




                                                                                            Page 16
                       Fiscal Year 2004 Statutory Review of Compliance With
                                   Lien Due Process Procedures

                                                                                                 Appendix VI


                        Internal Revenue Service Computer Systems
                       Used in the Filing of Notices of Federal Tax Lien

The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien (NFTL) and lien notices, stores taxpayer information, and documents all lien activity.
Lien activities on both the Integrated Collection System and Automated Collection System cases
are controlled on the ALS by Technical Support or Case Processing functions in Area Offices.
Employees in these functions process NFTLs and lien notices and respond to taxpayer inquiries
using the ALS.
The Integrated Collection System (ICS) is an Area Office computer system with applications
designed around each of the main collection tasks, such as opening a case, assigning a case,
building a case, performing collection activity, and closing a case. The ICS is designed to
provide management information, create and maintain case histories, generate documents, and
allow online approval of case actions. Lien requests made using the ICS are uploaded to the
ALS. The ALS generates the NFTL and related lien notices and updates the Internal Revenue
Service’s (IRS) primary computer files to indicate that an NFTL has been filed.
The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance due accounts and return delinquency investigations. The ACS employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the NFTL and related lien notices and updates
the IRS’ primary computer files to indicate that an NFTL has been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in both campuses1 and Area Offices.
The system enables employees to perform such tasks as researching account information,
requesting tax returns, entering collection information, and generating collection documents.
The IDRS serves as a link from campuses and Area Offices to the Master File in order for the
IRS to maintain accurate records of activity on taxpayers’ accounts.
The Master File is the IRS database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.




1
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the computer centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 17
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures

                                                       Appendix VII


     Management’s Response to the Draft Report




                                                             Page 18
Fiscal Year 2004 Statutory Review of Compliance With
            Lien Due Process Procedures




                                                       Page 19
